h-iw?

Supreme Court, U.S.
FILED

MAY 0 6 2020
OFFICE OF THE CLERK

No. 20 -

In the
SUPREME COURT OF THE UNITED STATES
GEOFFREY M. YOUNG, pro se, Petitioner
vs.
AMY McGRATH and ANDY BESHEAR,
Respondents. Patrick Hughes, Counsel for Amy
McGrath. Christie Moore, Bailey Roese and
Gina Young, Counsel for Andy Beshear
On Petition for Writ of Certiorari to the
Kentucky Court of Appeals

PETITION FOR WRIT OF CERTIORARI
Geoffrey M. Young, pro se
454 Kimberly Place
Lexington, Kentucky 40503
energetic22@yahoo.com
(859) 278-4966

H

QUESTIONS PRESENTED FOR REVIEW
1) Whether Kentucky's Judicial Department
unlawfully enabled the names of Amy McGrath and
Andy Beshear, who were shown by a preponderance
of the evidence not to have been bona fide
candidates, to appear on general election ballots in
2018 and 2019, respectively.
2) Whether Kentucky's Judicial Department
has nullified the ballot challenge statute, Kentucky
Revised Statute (KRS) 118.176, in violation of
Section 15 of the Kentucky Constitution.
3) Whether the Kentucky Democratic Party
(“KDP”), party elites, and candidates may conspire to
rig their own primaries in violation of KRS 118.105
(1) and Section 6 of the Kentucky Constitution.

11

LIST OF PARTIES
1)

GEOFFREY M. YOUNG, pro se, Petitioner

2)

AMY McGRATH, Respondent in Petitioner's
2018 ballot challenge

3)

ANDY BESHEAR, Respondent in Petitioner's
2019 ballot challenge
LIST OF PROCEEDINGS

1)

Scott County Circuit Court, Division 1, Ballot
Challenge No. 18-CI-00541

2)

Court of Appeals Case No. 2019-CA-000590

3)

Court of Appeals Case No. 2019-CA-000664-I

4)

Supreme Court of Kentucky Case No. 2019SC-000439-D (final order entered on 3/18/20)

5)

Jefferson Circuit Court, Division 6, Ballot
Challenge No. 19-CI-06292

6)

Court of Appeals Case No. 2019-CA-001659-I
(sic: there was nothing interlocutory about it)

7)

Supreme Court of Kentucky, cover letter dated
March 20, 2020.

V

111

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

1

LIST OF PARTIES

11

LIST OF PROCEEDINGS

11

TABLE OF CONTENTS

in

TABLE OF CITED AUTHORITIES

m-v

OPINIONS BELOW

1-2

JURISDICTION

2-4

CONSTITUTIONAL PROVISIONS, STATUTES
AND POLICIES AT ISSUE....................... 4-6
STATEMENT OF THE CASE

6-54

REASONS WHY CERTIORARI SHOULD BE
GRANTED ............................................. 54-60
CONCLUSION

60

TABLE OF CITED AUTHORITIES
1st Amendment

5,17

Bylaw I.D of the Kentucky Democratic Party
9-10, 31-32

V

IV

Carnahan v. Yocom, 526 S.W.2d 301, 304 (Ky. Ct.
App. 1975)

23, 27

Civil Rule (“CR”) 65.09 (1)

55-56

Constitution, Art. I, § 2

58

Gibson v. Thompson, 336 S.W.3d 81 (Ky. 2011)........
................................................... 3, 28-29, 50-52, 55-56
Kentucky Constitution Section 6

58

Kentucky Constitution Section 15

3, 29

Kentucky Constitution Section 115

3

Kentucky Constitution Section 151

12, 36, 49

Kentucky Revised Statute (“KRS”) 118.105
34-35, 39-40
KRS 118.176

1, 3, 4, 5, 6, 12,

13, 15, 17, 21, 22-23, 26-31, 43-44, 46-48, 51-57, 59
KRS 119.295

35, 38, 58

Marbury v. Madison, 5 U.S. (1 Cranch) 137, 2 L.Ed.
60 (1803)
52
Rosenberg v. Republican Party ofJefferson County,

V

270 S.W.2d 171

38, 58

Stephenson v. Woodward182 S.W.3d 171 (Ky.

2006)

5, 28, 46

United States v. Classic, 313 U.S. 299, 316-317
(1941)................................................................... 58-59

1
OPINIONS BELOW
On April 23, 2019, the Honorable Jeremy
Mattox, Scott County Circuit Judge, Division 1,
entered an order dismissing my ballot challenge
against Amy McGrath, which I had filed and served
on October 3, 2018. Appendix (“App.”) at a2-a8
On July 11, 2019, the Kentucky Court of
Appeals entered an order that dismissed my appeal
of the circuit court's order. App. at a8-a23. On July
12, 2019, the Kentucky Court of Appeals entered an
order that dismissed my motion to set aside the same
circuit court order pursuant to KRS 118.176 (4) and
my motion to recommend that the appeal be
transferred to the Supreme Court of Kentucky. App.
at a23-a31.
On March 18, 2020, the Supreme Court of
Kentucky entered a final order denying my motion

2

for discretionary review of the two orders entered by
the Court of Appeals. App. at a32.
On November 6, 2019, the Honorable Olu A.
Stevens, Jefferson County Circuit Judge, Division 6,
entered an Order dismissing my ballot challenge
against Andy Beshear. App. at a33-a35.
On February 27, 2020, the Kentucky Court of
Appeals entered an Order dismissing my motion to
set aside the circuit court's order. App. at a35-a45.
On March 20, 2020, the Clerk of the Supreme
Court of Kentucky sent me a letter, my check for the
filing fee of $150.00, and one copy of my motion for
discretionary review. App. at a46-a47.
JURISDICTION
The order denying discretionary review of
Scott County ballot challenge No. 18-CI-00541 was
entered by the Supreme Court of Kentucky on March

3

18, 2020. The cover letter stating that the Supreme
Court of Kentucky would not consider my motion for
discretionary review re Jefferson County ballot chal­
lenge No. 19-CI-06292 was dated March 20, 2020.
The jurisdiction of this Court is established by
28 US Code § 1257. The validity of Kentucky's ballot
challenge statute, as interpreted by the Supreme
Court of Kentucky since 2011, is in question because
that court's interpretation of KRS 118.176 is
repugnant to Sections 15 and 115 of Kentucky's
Constitution. The Kentucky Court of Appeals has
been using the decision in Gibson v. Thompson, 336
S.W.3d 81 (Ky. 2011) to avoid deciding any motion to
set aside a circuit court's ruling [*9eeKRS 118.176(4)]
that it doesn't want to deal with. Every time the
Court of Appeals does that, it violates and actually
nullifies the governing statute.

4
28 U.S.C. § 2403(c) may apply; therefore this
petition is being served on the Attorney General of
Kentucky, the Honorable Daniel Cameron, 700
Capital Avenue, Suite 118, Frankfort, Kentucky
40601.
CONSTITUTIONAL PROVISIONS, STATUTES
AND POLICIES AT ISSUE
A. Starting in 2010, the Supreme Court of
Kentucky and the Kentucky Court of Appeals have
repeatedly nullified Kentucky's ballot challenge law,
KRS 118.176. In the two ballot challenges that are
the subject of this petition for certiorari, the two
circuit courts knowingly and intentionally dismissed
them without ever weighing the merits. They felt
confident their decisions would not be overturned
because the Court of Appeals has demonstrated since
2010 that it will never overturn a circuit court that

5
dismisses a ballot challenge, no matter how unlawful
and frivolous the dismissal order might be.

The

Supreme Court of Kentucky refused to consider my
two motions for discretionary review and refused
even to file the second one, which violated the
Petitioner's First Amendment right “to petition the
Government for a redress of grievances.”
B. KRS 118.176 requires the circuit court to
try all ballot challenges “summarily and without
delay.” Section (2). The Kentucky Supreme Court's
decision in Stephenson v. Woodward, 182 S.W.3d
162, 171-172 (Ky. 2006) instructs:
However, if a court may accept these
actions any time prior to the election,
but loses jurisdiction once the polls
open, there is nothing to prevent a
recalcitrant judge from simply refusing
to adjudicate a KRS 118.176 motion.
The court might simply let the motion
sit until after election day, at which
point jurisdiction would evaporate. We

6

are confident that the General
Assembly did not intend such a result,
but instead intended the judiciary to
adjudicate the qualifications of candi­
dates — even if, in rare circumstances,
such adjudication actually occurs
several days after the election has
occurred.
In both cases that are the subject of this
petition, the circuit court “simply let the motion sit
until after election day” and then dismissed the
ballot challenge without ever considering the merits.
STATEMENT OF THE CASE
1. Geoffrey M. Young v. Amy McGrath
On September 27, 2018, I filed a motion,
pursuant to KRS 118.176, challenging the bona bides
and good faith of Amy McGrath, who had won the
Democrat

nomination

for

the

US

House

of

Representatives in Kentucky's Sixth Congressional
District. Six Democrats had run in the primary, and

7
I had been one of them.
My ballot challenge made the following
allegations:
1. On August 14, 2017, Young checked the web
site of the KDP and noticed a news item that had
apparently been posted on 8/2/17, titled, “Dems Bid
for Barr's Seat.” The first paragraph read as follows:
After Republican U.S. Rep. Andy Barr
has failed to pass any legislation since
taking office in 2012 and voted to take
away healthcare from more than
500,000 Kentuckians, two Democrats
seek to represent Kentucky's 6th
Congressional District.
The “two Democrats” were Reggie Thomas and
Amy McGrath.

Geoff Young's (D) name was

intentionally and pointedly omitted, even though I
had been publicly and widely announcing my
candidacy for the same seat since January, 2017.
The official KDP news item was false because three

8
Democrats, not two, were seeking to replace Andy
Barr (R) in November, 2018. The KDP news item
included the web sites of Reggie Thomas' and Amy
McGrath's campaigns, as well as the name of Ms.
McGrath's campaign manager, Mark Nickolas. My
name and campaign web site were not mentioned,
and I alleged that the KDP did it intentionally to
reduce my chances of winning the primary. Young's
Ballot Challenge at 16-18.
I immediately and repeatedly contacted the
KDP

and

informed

them

that

their

article

constituted a form of primary election rigging, but
they left the article up until the entire web site was
redesigned early in 2017.

Their refusal to modify

that article to include my name constitutes evidence
that the KDP's intent was malicious and criminal.
I alleged as follows:

9
Article I.D of the Bylaws of the KDP
includes the following sentence: “No
assets of the Democratic Party shall be
used in a Democratic Primary Election
unless they are made available equally
to all Democrat Candidates in that
specific primary election.”
It is
undeniable that space on the KDP's web
site is a valuable asset that began
providing measurable
and large
financial and political benefits to Reggie
Thomas and Amy McGrath on 8/2/17,
and that said assets were never made
available equally to Geoff Young.
It is obvious that the longer the
conspiracy concealed the fact of Young’s
existence and candidacy from thousands
of 6th District Democrats, the easier it
was for the conspiracy’s favored
candidates, Thomas and McGrath, to
raise funds and climb in name
recognition polls, and the harder it was
for Young to do the same,
The
monetary value of the violations that
the conspiracy committed between
8/2/17 and 5/22/18, the date of the
primary election, may have exceeded
$300,000. The KDP later added Jim
Gray to its list of favored candidates
after Gray jumped into the race on
December 5, 2017. Any of the three
would have been acceptable to the KDP,

10
but the Movant has been absolutely
unacceptable to the conspirators since
2015. Id. at 17-18
2. On October 17, 2017, candidate Amy
McGrath spoke to about 50 Democrats at the
Lexington Public Library. A question and answer
session followed her prepared remarks. At 7:01 pm,
I asked her a question that referred to Article I.D of
the KDP Bylaws:
“In the past few years the Kentucky
Democratic Party has started to get a
reputation of corruption.”
(Reading
from a piece of paper): 'Article One-D of
the KDP Bylaws includes the sentence,
“No assets of the Democratic Party shall
be used in a Democratic Primary
Election unless they are made available
equally to all Democrat candidates in
that specific primary election.'”
(Young, looking up from the paper): “So
on August second, the KDP put up on
its web site a news article featuring
yourself & Reggie Thomas, the third
candidate. I had announced my
campaign months before, in January

11
2017.
It seems to me that is a
prohibited use of KDP in-kind resources
to support two candidates and pretend
that I don't exist, I consider that
election fraud. My question is, 'How is
the KDP going to kick its reputation for
corruption, which was mirrored on the
national level by Crooked Hillary, if
they keep playing little tricks like
rigging primary elections?' Eventually,
as far as I can tell, they intend to steal
it.”
Amy McGrath: “Well, my answer to
that, sir, is that you'll just have to ask
the KDP.”
Young: “Since you know about it, have
you asked them to change that news
article to include my name also? Why
not?”
McGrath avoided the question.
Young: “It seems to me that you and
Reggie have an ethical obligation to tell
the KDP that you want that fake news
article changed.”
7:03 pm - McGrath called on someone
else. Id. at 24-25
My ballot challenge continued as follows:

12
This might be the incident that proves
to this Court that Amy McGrath was
aware of at least the general nature of
the accusations of conspiracy and largescale election fraud Young has been
making against several influential
Kentucky Democrats ever since March,
2015. Movant hereby requests that the
Court subpoena Amy McGrath to
appear at the hearing that may be
scheduled pursuant to KRS 118.176 to
testify, under oath, about whether
Incident #16 happened. Id. at 25
I wrote:
Having been informed by Young that
the KDP had allegedly been rigging and
stealing primary elections since 2015,
and that their web site was allegedly in
violation of a critically important bylaw
at that very moment, McGrath was
under an affirmative obligation to check
into whether any of the allegations
might have been true. Instead, she took
the easy way out and dodged all legal
responsibility for the actions of the
KDP. But that response opened her up
to future impeachment by the Kentucky
General Assembly because she ratified
a set of violative “acts done by others
with her authority.” [Ky. Constitution, §
151] Id. at 26.

13
I alleged that no candidate who had conspired
with others to rig her own primary can be considered
a bona fide candidate in the context of KRS 118.176.
3. On Saturday, September 8, 2018,1 attended
the second annual Ideas Conference of the New
Kentucky Project (“NKP”) in Georgetown, Kentucky.
I was a member of that organization, which had been
founded by Democrats Adam Edelen and Matt Jones.
The Respondent was to give the keynote speech. A
man came over to the table I was sitting at, sat
down, introduced himself as Mike Shugart, said he
was a retired police officer from Louisville, and said
he had come to the conference that day “to hear Amy
McGrath.”
I alleged that after about four minutes of
McGrath's speech had passed, I reached under my
chair, took a folded-up poster-like sign out of my

14
backpack, stood up, and took one or two steps toward
the side of the room - not toward McGrath. It was
folded into quarters, so neither side of the sign was
legible at all. I was intending to stand there holding
the sign silently for the duration of McGrath's
speech. Before I could even unfold it, Mike Shugart
jumped up and grabbed the sign away.

I said

something like, “Hey! What are you doing?” Instead
of answering, Shugart grabbed my upper body from
behind and started pushing me toward the door in
the back of the room. I was totally shocked by Mike
Shugart's physical aggression against me. I said at a
volume that was slightly louder than my normal
speaking volume, “You're a police officer!

That is

assault!” He hauled me out the door, through the
lobby of the conference center, out the doors of the
building, and onto the sidewalk outside. The

15
Respondent did nothing to stop him. Id. at 57-59.
I alleged that Shugart's act met the commonlaw definition of assault and battery; that McGrath
had been told that something like that might
happen; that Adam Edelen and the other leaders of
the NKP had conspired with Mike Shugart to assault
and batter me if I were to stand up with a sign in my
hand; and that no candidate who had conspired with
others to assault and batter one of her political
opponents for the purpose of violating his freedom of
speech can be considered a bona fide candidate in the
context of KRS 118.176. Id. at 64-68.
4. My county party in 2018 was the Fayette
County Democratic Party (“FCDP”). I alleged that
on September 8, 2016, the Executive Committee of
the FCDP unlawfully expelled me from their
monthly meeting in Lexington and later sent me a

16
letter saying they would call the police every time I
walked into the building. Whenever I showed up,
they accused me of “trespassing.” The Chair of the
FCDP, Clint Morris, threatened to call the police on
September 13, 2016, October 13, 2016, January 12,
2017, March 9, 2017, August 9, 2018; and threatened
to and actually did call the police on May 11, 2017,
January 11, 2018, February 8, 2018, April 12, 2018,
May 31, 2018, June 24, 2018, July 4, 2018, and
September 13, 2018. Id. at 4-15; 26-41; 46; 48-49; 5156; and 67.

I was not arrested on any of those

occasions, but I wasn't able to attend any meetings.
I also alleged that the Kentucky Democratic
, Party (“the KDP”) in Frankfort threatened to call the
police on March 4, 2017; and threatened to and
actually did call the Franklin County Sheriffs Office
on March 22, 2018 and June 9, 2018. Id. at 11-12; 43-

17
46; and 49-50.
I alleged that all of these violations of my First
Amendment rights by the FCDP and the KDP made
it much more difficult for me to inform active
Democrats about my positions on the issues and ask
for their help in my campaign; that banning me from
meetings I had every legal right to attend was
discriminatory and therefore unlawful; that I was
the only candidate running for the US House in KY-6
who was being threatened with arrest for walking
into the headquarters buildings in Lexington and
Frankfort; that the FCDP's and the KDP's actions
constituted wholesale primary election fraud; and
that no candidate who had conspired with others to
rig her own primary can be considered to be a bona
fide candidate in the context of KRS 118.176.
5. My ballot challenge of October 3, 2018

18
included descriptions of other violations of my civil
rights committed by the Respondent and the alleged
conspiracy. Id., throughout.
Between September 27 and October 3, 2018, I
attempted to mail copies of my ballot challenge to the
Respondent at several different addresses: Amy
McGrath, 119 Spring Bluff Dr., Georgetown, KY
40324 (by registered mail, return receipt to the Scott
County Courthouse requested); Amy McGrath, P.O.
Box 875, Georgetown, KY 40324; and Amy McGrath
do Ben Self, KDP Chairperson, KDP, 190 Democrat
Drive, Frankfort, KY 40601. I also uploaded my 70page ballot challenge to Dropbox on September 27,
2018 and emailed a press release that included the
URL to the media and many Democrats so anyone
who was interested could read it. I also put the URL
of my ballot challenge on Facebook on October 3.

19
There is no doubt in my mind that the Respondent
and dozens of other Kentucky Democrats were aware
that I had filed a ballot challenge against her.
On October 24, 2018, after receiving no
documents or any other communications from the
Respondent or any attorney, I filed a motion for
default judgment in the Scott County Circuit Court,
Division 1, and noticed it to be heard on November 1,
five days before the general election.

Between

September 23 and November 1, 2018, the trial court
and the Respondent did nothing.

The registered

mail and postcard had been returned to the
Courthouse unclaimed on October 23, 2018.

It is

clear that if I hadn't filed a motion for default
judgment and noticed it for November 1, 2018, the
court would never have scheduled a hearing or
entered a decision before election day, November 6,

20

2018.
At the hearing, no one appeared to represent
the Respondent. After introducing myself, I said:
This is a motion for default judgment
because I have still not received
anything in writing from the Defendant
(sic: the Respondent) or — I don't even
know if she has counsel.
The Court: Okay. Um, and, if you file a
lawsuit and the defendant does not
respond to it, you're certainly, within
the 20 days, you’re certainly entitled to
a default judgment. However, um, Ms.
McGrath is not properly before the
Court because she's not been served.
And she, it looks like the certified mail
has been returned unclaimed?
Mr. Young: Yes.
The Court: There's a way to effect
constructive service, um, and that
hasn't been done yet. I can't tell you
how to effect constructive service across
the bench, but you have to have her
served either directly or constructively,
um, in order to move for a default
judgment. And then the statutory
period of 20 days has to elapse before

21
you move that. So right now she's not
properly before the Court. The lawsuit
is in the, is before this Court.
Mr. Young: Yes.
The Court: But the Defendant is not
served and before the Court, and so
therefore I'm going to have to overrule
your motion...
Mr. Young: It was unclaimed.
The Court: It was unclaimed, so
therefore she's not properly before the
Court. Now there are ways to
constructively...
Mr. Young:... I'd just like to note for the
record that, it's, that would be the
easiest way for a defendant to evade
justice, especially in a case that
requires, uh, prompt action, such as a
ballot challenge pursuant to, uh, KRS
118.176.
That's the easiest and
cheapest way to avoid justice, I would
suggest.
The Court: And here's the Court's
response to that: Um, she's pretty easy
to find. Um, in fact it's almost
impossible to avoid hearing or seeing
her. Um, so, you know, I think the

22

options to have her personally served by
a constable or a deputy sheriff in this
county is on the table, um.
Later on November 1, 2018, I returned to the
Scott County Courthouse with yet another copy of
my ballot challenge, cover letter, and summons form,
and paid a constable to serve Ms. McGrath. He did
so on November 5, 2018, the day before the election.
The Circuit Court Violated KRS 118.176.
The circuit court's actions from September 27
to November 6, 2018 demonstrated contempt for the
clearly-written provisions of KRS 118.176.

As I

pointed out in my motion to set aside the circuit
court's order, “The trial court should have granted
my motion for default judgment.” I also wrote that
the court should have scheduled one evidentiary
hearing during the week of October 8 to October 12,
2018 because “the governing statute, KRS 118.176,

23

could hardly be more clear about the need for
extreme speed, even haste, in deciding ballot
challenges on their merits.” Young's motion to set
aside at 4-5.
Two full weeks after the election, Respondent
submitted a motion to dismiss my ballot challenge not a responsive pleading. It was clearly untimely
and

should

have

been

overruled

summarily.

“Pleadings filed or tendered after the filing of a
motion for default judgment are late, and this
delinquent status will not be changed by the fact
that the motion to dismiss is pending...” Carnahan v.
Yocom, 526 S.W.2d 301, 304 (Ky. Ct. App. 1975).
I responded on November 28, 2018 by filing a
motion to strike or summarily deny Respondent's
motion to dismiss, and I noticed it to be heard on
December 6, 2018. At that hearing, attorney Patrick

24
Hughes made his only appearance on behalf of the
Respondent. I asked the court to set Respondent's
vote total to zero “because every vote she received
was illegitimate because she committed election
fraud.

She and a conspiracy of other powerful

Democrats in Kentucky committed election fraud in
May of 2018.” The court said only, “I'm not a federal
judge,” and “I'll take this under submission and get
you out a ruling.” Judge Mattox concluded by saying,
“The election is over, the results have been certified,
and there's really nothing left for me to do.”
Videotape of Motion Hour #2, December 6, 2018.
The circuit court continued to do nothing. On
January 29, 2019,1 therefore renewed my motion for
default judgment against the Respondent on the
grounds that she had never submitted any evidence
that would contradict my assertion that she had

25
conspired with others to rig the Democrat primary
against me and was therefore not a bona fide
candidate during 2018.

I also described another

violation allegedly committed by Clint Morris, Chair
of the FCDP, on January 10, 2019.

I noticed the

motion to be heard on February 7, 2019 and renewed
my request that the court set McGrath's vote total to
zero.

I also renewed my request for extensive

declaratory

relief.

Ballot

Challenge

at

67-69;

September 27, 2018.
At Motion Hour #3 on February 7, 2019, the
Respondent was not represented by counsel. I asked
whether the Court was going to set McGrath's vote
total to zero, and the Court said, “I am probably
going to rule for Ms. McGrath in this matter” and
that I would receive a copy of the order. The court
continued to “let the motion sit.”

26

On April 23, 2019, I filed a motion asking the
court to find the Respondent and her attorney in
contempt of court for failing to appear at the motion
hours on February 7 or April 4, 2019. I also renewed
my motion to set her vote total to zero because her
motion to dismiss was untimely and she had never
made any defense on the merits. I noticed the motion
to be heard on May 2, 2019, but on April 29 the court
entered its final order, included in the Appendix at
a2 to a8.
The trial court violated the governing statute
from October 3, 2018 to April 29, 2019, a total of
seven months.

It never weighed the evidence

presented by the Movant against the complete
absence of evidence presented by the Respondent.
Instead of scheduling a single hearing at which
evidence would be heard during the week of October

27
8 to 12, 2018 or the week after that, the Court did
nothing but wait for Amy McGrath, by counsel, to file
a motion to dismiss. Instead of granting my motion
for default judgment, the court denied it for the
frivolous reason that although the ballot challenge
was before the court, the Respondent was “not
properly before the court.” That conclusion of law
was false. Carnahan v. Yocom, 526 S.W.2d 301, 304
(Ky. Ct. App. 1975).
When the motion to dismiss finally appeared,
the court refused to find that it contained no counter­
evidence at all but was merely an argument to the
effect that the entire controversy had become moot.
Instead of deciding the ballot challenge “summarily
and without delay,” as required by KRS 118.176 (2),
the court wasted seven months for no legitimate
reason. Instead of finding that the ballot challenge

28

had

never

become

moot,

see Stephenson

v.

Woodward, 182 S.W.3d 162, 168-173 (Ky. 2006), the
circuit court considered Respondent's argument
about mootness to be dispositive. Motion Hour #4;
April 4, 2019, 9:24 am. See App. at a2-a8.
I timely filed a motion to set aside in the
Kentucky Court of Appeals on April 29, 2019, on the
grounds that the circuit court had violated KRS
118.176 in several specific ways. Instead of hearing
and deciding the motion “in the manner provided for
dissolving or granting injunctions,” i.e., “summarily
and without delay,” the Court of Appeals refused to
enter its final order until July 12, 2019. App. at a23a31. That order avoided discussing the question of
whether the circuit court had committed any
reversible errors and violated KRS 118.176, as I had
clearly alleged. Instead, it cited Gibson v. Thompson,

29
336 S.W.3d 81, 82 (Ky. 2011) and declared that I
never had the legal right to file a motion to set aside
the circuit court's dismissal order. App. at 23-31.
The Court of Appeals nullified KRS 118.176, which
violates Section 15 of the Kentucky Constitution.
On August 6, 2019, I timely filed a motion for
discretionary review in the Supreme Court of
Kentucky, in which I alleged that the Court of
Appeals had violated and nullified KRS 118.176 by
refusing ever to weigh my evidence against the
Respondent's absence of evidence.

I alleged that

because the circuit court had never weighed the
evidence presented - had never decided the ballot
challenge on the merits - the Court of Appeals or a
judge thereof had had a ministerial duty to do so, but
it refused. And I argued that the Court of Appeals
knowingly violated and nullified KRS 118.176 (4).

30

The Supreme Court did nothing until March
18, 2020 - a delay of seven and a half more months —
at which time it entered an order denying my motion
for discretionary review. It gave no reason. App. at
32. By March 18, 2020, Andy Barr (R) was running
for reelection and Amy McGrath was running for the
Democratic Party nomination for the U.S. Senate.
The circuit court violated KRS 118.176, which
mandates that all ballot challenges be “tried
summarily and without delay,” for almost seven
months; the Court of Appeals for two and a half more
months; and the Supreme Court of Kentucky for
seven and a half more months. Kentucky's Judicial
Department openly nullified a valid state statute,
KRS 118.176.
2. Geoffrey M. Young v. Andy Beshear
On October 8, 2019,1 filed a motion, pursuant

31
to KRS 118.176, challenging the bona tides and good
faith of Andy Beshear, who had won the Democratic
nomination

for

governor

of

Kentucky.

Four

Democrats had run in the primary, and I had been
one of them.
My ballot challenge made the following
allegations:
1. In addition to violating every Kentucky
statute that prohibits election fraud in primary and
general elections, the KDP routinely violates its own
bylaws. Section I.D. of the KDP Bylaws, as updated
on June 1, 2019, reads as follows:
I.D. No Discrimination in Parly
Meetings: All public meetings at all
levels of the KDP are open to all
members of the KDP regardless of age
(if of voting age), gender, religion,
economic status, sexual orientation,
ethnic identity or physical disability.
No Democrat Committee governed by

32

these By-Laws, or any Democratic Party
Officer acting in his or her official
capacity, shall endorse or support one
Democratic candidate over another
Democratic candidate in a Democratic
Primary Election. No assets of the
Democratic Party shall be used in a
Democratic Primary Election unless
they are made available equally to all
Democrat Candidates in that specific
primary election...
I alleged that Governor Steve Beshear, Andy
Beshear's father, helped rig the 2014 Democratic
primary for the U.S. House of Representatives in
Kentucky's Sixth District against me by endorsing
my only primary opponent, Elisabeth Jensen,
thirteen days before the primary.

Young's Ballot

Challenge at 2-4.
I alleged that the Governor's endorsement was
a blatant violation of Article I.D of the Bylaws of the
KDP. I alleged: “If it is illegal even for churches to
violate their bylaws, it is certainly illegal for a

33

political party to do so for the purpose of rigging its
own primaries, regardless of the preferences of
Kentucky's registered Democrats.” Id. at 6.
2.1 alleged as follows:
On Monday, February 9, 2015,
the State Central Executive Committee
(“SCEC”) of the KDP held a "Unity
Press
Conference"
at
their
Headquarters building in Frankfort,
where then-Governor Steve Beshear,
Andy Beshear, Jack Conway, Alison
Lundergan Grimes, Adam Edelen, and
several other prominent Democrats
announced, in effect, that the 2015
nominees had been chosen by the Party
Establishment. Before the speeches
began, I asked the brand-new Chair­
person of the KDP, Patrick Hughes, for
permission to speak and was denied.
Shortly after the Unity Press
Conference ended, Mr. Hughes said to a
reporter, “It's clear that Jack Conway's
going to be our nominee for governor;
it's clear that Alison Grimes is going to
be our nominee for secretary of state.”
One of the meanings of the word
“nominate” (from Latin) is to name
someone. To name candidates is

28

had

never become

moot,

see Stephenson

v.

Woodward, 182 S.W.3d 162, 168-173 (Ky. 2006), the
circuit court considered Respondent's argument
about mootness to be dispositive. Motion Hour #4;
April 4, 2019, 9:24 am. See App. at a2-a8.
I timely filed a motion to set aside in the
Kentucky Court of Appeals on April 29, 2019, on the
grounds that the circuit court had violated KRS
118.176 in several specific ways. Instead of hearing
and deciding the motion “in the manner provided for
dissolving or granting injunctions,” i.e., “summarily
and without delay,” the Court of Appeals refused to
enter its final order until July 12, 2019. App. at a23a31. That order avoided discussing the question of
whether the circuit court had committed any
reversible errors and violated KRS 118.176, as I had
clearly alleged. Instead, it cited Gibson v. Thompson,

29
336 S.W.3d 81, 82 (Ky. 2011) and declared that I
never had the legal right to file a motion to set aside
the circuit court's dismissal order. App. at 23-31.
The Court of Appeals nullified KRS 118.176, which
violates Section 15 of the Kentucky Constitution.
On August 6, 2019, I timely filed a motion for
discretionary review in the Supreme Court of
Kentucky, in which I alleged that the Court of
Appeals had violated and nullified KRS 118.176 by
refusing ever to weigh my evidence against the
Respondent's absence of evidence.

I alleged that

because the circuit court had never weighed the
evidence presented - had never decided the ballot
challenge on the merits - the Court of Appeals or a
judge thereof had had a ministerial duty to do so, but
it refused. And I argued that the Court of Appeals
knowingly violated and nullified KRS 118.176 (4).

30

The Supreme Court did nothing until March
18, 2020 - a delay of seven and a half more months at which time it entered an order denying my motion
for discretionary review. It gave no reason. App. at
32. By March 18, 2020, Andy Barr (R) was running
for reelection and Amy McGrath was running for the
Democratic Party nomination for the U.S. Senate.
The circuit court violated KRS 118.176, which
mandates that all ballot challenges be “tried
summarily and without delay,” for almost seven
months; the Court of Appeals for two and a half more
months; and the Supreme Court of Kentucky for
seven and a half more months. Kentucky's Judicial
Department openly nullified a valid state statute,
KRS 118.176.
2. Geoffrey M. Young v. Andy Beshear
On October 8, 2019,1 filed a motion, pursuant

31
to KRS 118.176, challenging the bona tides and good
faith of Andy Beshear, who had won the Democratic
nomination

for

governor

of

Kentucky.

Four

Democrats had run in the primary, and I had been
one of them.
My ballot challenge made the following
allegations:
1. In addition to violating every Kentucky
statute that prohibits election fraud in primary and
general elections, the KDP routinely violates its own
bylaws. Section I.D. of the KDP Bylaws, as updated
on June 1, 2019, reads as follows:
I.D. No Discrimination in Party
Meetings: All public meetings at all
levels of the KDP are open to all
members of the KDP regardless of age
(if of voting age), gender, religion,
economic status, sexual orientation,
ethnic identity or physical disability.
No Democrat Committee governed by

32

these By-Laws, or any Democratic Party
Officer acting in his or her official
capacity, shall endorse or support one
Democratic candidate over another
Democratic candidate in a Democratic
Primary Election. No assets of the
Democratic Party shall be used in a
Democratic Primary Election unless
they are made available equally to all
Democrat Candidates in that specific
primary election...
I alleged that Governor Steve Beshear, Andy
Beshear's father, helped rig the 2014 Democratic
primary for the U.S. House of Representatives in
Kentucky's Sixth District against me by endorsing
my only primary opponent, Elisabeth Jensen,
thirteen days before the primary.

Young's Ballot

Challenge at 2-4.
I alleged that the Governor's endorsement was
a blatant violation of Article I.D of the Bylaws of the
KDP. I alleged: “If it is illegal even for churches to
violate their bylaws, it is certainly illegal for a

33

political party to do so for the purpose of rigging its
own primaries, regardless of the preferences of
Kentucky's registered Democrats.” Id. at 6.
2.1 alleged as follows:
On Monday, February 9, 2015,
the State Central Executive Committee
(“SCEC”) of the KDP held a "Unity
Press
Conference"
at
their
Headquarters building in Frankfort,
where then-Governor Steve Beshear,
Andy Beshear, Jack Conway, Alison
Lundergan Grimes, Adam Edelen, and
several other prominent Democrats
announced, in effect, that the 2015
nominees had been chosen by the Party
Establishment. Before the speeches
began, I asked the brand-new Chair­
person of the KDP, Patrick Hughes, for
permission to speak and was denied.
Shortly after the Unity Press
Conference ended, Mr. Hughes said to a
reporter, “It's clear that Jack Conway's
going to be our nominee for governor;
it's clear that Alison Grimes is going to
be our nominee for secretary of state.”
One of the meanings of the word
“nominate” (from Latin) is to name
someone. To name candidates is

34
therefore to nominate them; thus, the
SCEC and the brand-new KDP
Chairman officially nominated Jack
Conway, Alison Lundergan Grimes,
Andy Beshear, and Adam Edelen on
2/9/15, despite the fact that the primary
election was still more than three
months away, on May 19, 2015. For a
political party to nominate its
candidates three months ahead of the
vote is to turn the entire primary
election into an empty, anti-democratic
exercise - a sham. Chairman Hughes
and the other members of the
conspiracy violated Kentucky law when
they nominated Defendant Conway on
2/9/15, announced their decision to the
public, and then made sure that the
KDP promoted, supported, and alloca­
ted Party resources only to Conway and
not to his opponent (me) from February
9, 2015 until May 19, 2015, the date of
the primary election. ICRS 118.105 (1)
reads as follows:
Nominations by political parties —
Vacancy in candidacy - Replacement
candidates — Exceptions — Ineligibility
of Senior Status Special Judge.
(1) Except as provided in subsections (3)
and (4) of this section and in KRS
118.115, every political party shall

35
nominate all of its candidates for
elective offices to be voted for at any
regular election at a primary held as
provided in this chapter, and the
governing authority of any political
party shall have no power to nominate
any candidate for any elective office or
to provide any method of nominating
candidates for any elective office other
than by a primary as provided in this
chapter. (Emphasis added)
This is the Kentucky statute that
specifies clearly and emphatically that
no method of choosing Democratic (or
Republican) nominees is lawful other
than a "free and equal" primary, which
is paid for by Kentucky taxpayers. fSee
Section 6 of the Kentucky Constitution
and KRS 119.295, which states that all
laws against election fraud apply to
primaries as well as general elections]
Most enabling statutes do not repeat
themselves by stating that no other
method to accomplish the specified goal
is allowed, but free and equal elections
are so important to the life of a
democratic republic that the General
Assembly felt that the inclusion of a
slightly redundant clause - the last four
lines - was necessary. The conspiracy
developed an antithetical, facially
unlawful process to nominate Jack

36

Conway for Governor more than three
months before the primary election and
to sideline me, in complete contempt for
the law and the freedom of Kentucky's
1.6 million registered Democrats to
enjoy an election untainted by any type
of “fraud, intimidation, bribery, or any
other corrupt practice.” ISee Kentucky
Constitution Section 151]
The
conspiracy committed what might have
been the worst election fraud in
Kentucky history (until the 2019
primary, which was an even worse
crime): rigging and stealing the entire
2015 primary election for Governor by
turning it into a sham election. Young's
Ballot Challenge at 6-8.
3. I alleged that I tried to get former Attorney
General Jack Conway and his successor, Respondent
Andy Beshear, to investigate possible primary
election-rigging by the KDP and FCDP.
On November 3, 2015, Jack
Conway lost the general election for
Governor and Andy Beshear was elected
Attorney General. He was sworn in on
January 4, 2016. On the basis of my
firm conviction that the KDP had just
committed the worst election fraud in

37
Kentucky history, I contacted various
state and federal law enforcement
personnel. For a few months during
2015, a Special Agent for the FBI
seemed somewhat interested, and he
invited me to meet with him in
Lexington. I did so, but nothing ever
came of it. I also called the Kentucky
Attorney
General's
Office
and
repeatedly asked for a meeting with
outgoing Attorney General Jack
Conway. Eventually, on December 17,
2015, I spoke over the phone with
Barbara Whaley, an employee in the
Office of Special Prosecutions, who
advised, “You haven't sent us any facts.
Put it into writing.” In response to her
demand, I wrote a 64-page criminal
“information,” signed it and had it
notarized on December 28, 2015, and
mailed it to Ms. Whaley and several
state and federal law enforcement
agencies. No one in law enforcement
ever considered it to be worth their time
to investigate what I believe was the
worst case of election fraud in
Kentucky's history. I continued asking
for a meeting with the new Attorney
General, Andy Beshear, but I was never
allowed to meet with him (or his
predecessor). Greg Copley and Barbara
Whaley met with me in Frankfort, but
they refused to recommend an

38

investigation or the indictment of any
Democrats. Greg Copley told me that
no Democrat had violated any Kentucky
election or ethics law and that no
prosecutor would ever be able to prove
otherwise. When he said that, he was
inadvertently admitting that neither he
nor anyone else in the Attorney
General's Office was even slightly
competent as a prosecutor. I asked for a
meeting with their supervisor at that
time, Shawna Kincer, but they told me
that neither she nor Andy Beshear
would meet with me. Id. at 11-12.
I concluded that Attorney General Andy
Beshear “should have issued an Attorney General's
Opinion to the effect that the enactment of KRS
119.295 completely invalidated the 1954 decision of
Kentucky's highest court in Rosenberg v. Republican
Party ofJefferson Comity, 270 S.W.2d 171.” Id. at 12.
4. On August 19, 2016,1 filed a civil lawsuit in
the Federal Court for the Eastern District of
Kentucky against the following alleged members of

39
the KDP primary-election-rigging conspiracy: Sannie
Overly,

Clint

Morris,

Andy

Beshear,

Alison

Lundergan Grimes, Jack Conway, the State Central
Executive Committee of the Kentucky Democratic
Party, and the Executive Committee of the Fayette
County Democratic Party. On page 40 (of 48) of my
complaint, I alleged:
Steve Beshear and Defendants Grimes,
Conway, and Andy Beshear, moreover,
actually held powerful positions in
Kentucky's government when they
participated in the conspiracy to commit
the violations described herein. Every
unlawful act and omission they
committed was done under color of law.
Young's Ballot Challenge at 13.
On page 42,1 alleged:
Defendant Andy Beshear should have
appointed a special prosecutor upon
taking office. Instead, he had two staff
members tell Plaintiff that no powerful
Democrat could possibly have violated
any state election statute in 2015,
specifically including KRS 118.105...

40
Nothing could be a clearer example of
self-dealing than an Attorney General
who categorically refuses to investigate
and
prosecute
criminal
actions
committed by himself (Conway) or AG
Andy Beshear's father (Steve Beshear).
Id. at 13.
I alleged:
Defendants Conway, Andy Beshear, and
Grimes, aided by certain Kentucky
judges, have completely nullified KRS
118.105(1),
which
prohibits
the
Democratic (and Republican) Party
from nominating any of its candidates
except through a state-supported, stateregulated, and state-supervised primary
election. Defendant Andy Beshear's
Office made it clear that there is no way
for any Democrat even to be accused of
violating this statute as long as a
primary election actually occurs.
Beshear's staffers explicitly told
Plaintiff that sham primary elections
are perfectly lawful and acceptable.
During the same meeting on 1/12/16,
they told Plaintiff that while the
Federal Code might have laws against
obstruction of justice, Kentucky has
none. If that is the case, Defendants
should have referred Plaintiff s criminal
complaint to the appropriate Federal

41
prosecutor(s). They failed and refused to
do so. If that is not the case, Defendants
were intentionally making a false
representation about the law in an
effort to get the Plaintiff to drop all of
his legitimate legal actions to defend his
constitutional rights. Id. at 14.
Defendants committed the acts alleged
herein maliciously, fraudulently and
oppressively
with
the
wrongful
intention of injuring Plaintiff from an
improper and evil motive amounting to
malice, and in conscious disregard of
Plaintiffs rights. Plaintiff is thus
entitled to recover exemplary and
punitive damages from Defendants in
amounts to be proven at trial. Young's
Ballot Challenge at 14; October 8, 2019.
Andy Beshear, by counsel, filed a motion to
dismiss for failure to state a claim upon which relief
could be granted. He made several statements that
were false on their face: (1) “The fact that the
Attorney

General

is

a

’powerful

Democrat'

essentially constitutes the entirety of Young's claim
against the Attorney General.” [Memorandum to

42
Dismiss at 1] (2) “The allegations made by Young
concerning the AG, to the extent they are even
deemed credible, bear no relation to any of his
alleged causes of action, or to any causes of action
whatsoever.” [Id. at 6]

(3) “Young's Complaint

against the AG in his individual capacity claims only
that the AG is a 'powerful Democrat' and makes
vague allegations of conspiracy...” [Id. at 7] Anyone
who reads my Complaint in an unbiased manner
would consider those statements to be facially false
arguments that had been submitted in bad faith.
In every civil action that I have filed against
the Respondent, including the ballot challenge that
is the subject of this petition, Andy Beshear has
adopted the same strategy: file a motion to dismiss
that contains nothing but false statements about
what I had alleged in my complaint or ballot

43
challenge. So far, every court has believed his false
statements and dismissed every civil action without
ever reaching the merits. Andy Beshear's conduct
since 2016 — defrauding one court after another
proves that he was not running for governor in good
faith and was therefore not a bona fide candidate in
2019. KRS 118.176.
The Circuit Court Violated KRS 118.176.
The circuit court held a preliminary hearing
on October 14, 2019, at which time counsel for the
Respondent expressed an intention to file a motion to
dismiss. The court made no decision that day except
to “hear what the Respondent has to say.”
On October 22, 2019, the Respondent, by
counsel, filed 160 pages of material that listed all of
my civil actions that had been dismissed in the past.
It did not include any testimony or evidence that

44
would suggest that Andy Beshear was in fact a bona
fide candidate in 2019 or that any of the specific
allegations in my ballot challenge were false.
Despite repeated requests, counsel for Mr. Beshear
never mailed me a copy of their answer. I had to
visit the Court of Appeals to look at the attachments.
On October 25, 2019, I filed a motion,
pursuant to KRS 118.176, asking:
that the Court hold a hearing on
Monday, October 28, 2019 to decide this
case in my favor. The governing statute
requires the extremely expeditious
resolution of all ballot challenges.
Delay and obfuscation on the part of
Andy Beshear and his defense
attorney(s) should not be allowed by the
Jefferson Circuit Court. Every word of
Andy Beshear's Response, by Counsel,
is irrelevant to the question of whether
he is a bona fide candidate for Governor
this year. It contained no evidence
whatsoever. I am not the candidate on
trial here; Beshear is.
The circuit court never ruled on that motion.

45
On October 31, 2019,1 filed a motion asking:
that this Court decide this ballot
challenge in my favor, without another
hearing, on or before Monday,
November 4, 2019. I also move that the
Court enter said Order in writing and
inform the Kentucky Board of Elections
that no votes for Andy Beshear shall be
counted because the Court has
determined, based on a preponderance
of the evidence presented, that Andy
Beshear is not a bona fide candidate for
Governor in 2019.
As justification for that motion, I wrote:
I have presented evidence of
Andy Beshear's contempt for democracy
in “Democratic” primaries in my ballot
challenge, over which this Court
acquired jurisdiction on October 8,
2019. Attorney General Beshear has
had plenty of time to present evidence
that would tend to show that he is a
bona fide candidate, but he failed and
refused to do so. Instead, he filed an
Answer that is either completely
irrelevant to that question or actually
supplements the evidence I presented to
the effect that he has not been a bona
fide candidate at any time during the
primary campaign or the current

46
general election campaign. In effect, he
put forth no defense at all.
The circuit court waited until after the election
before entering its final order. The Supreme Court of
Kentucky's decision in Stephenson v. Woodward, 182
S.W.3d 162, 171-172 (Ky. 2006) calls a judge who
does that “a recalcitrant judge.”
KRS 118.176 includes no provision that would
allow a motion to dismiss to be filed by the
challenged candidate or would allow the circuit court
to dismiss a ballot challenge without reaching the
merits. The statute, read as a whole, places a very
high priority on the speedy resolution of all ballot
challenges, and motions to dismiss can easily add six
months or a year or more to the duration of any civil
action. I am confident that the General Assembly
did not intend that the public be compelled to wait

47
that long before finding out whether the election was
legitimate or would have to be done over without the
challenged candidate's name on the ballot.
The

circuit

court

dismissed

my

ballot

challenge the day after the election, writing that my
ballot challenge was “devoid of any allegation that
the Respondent is not at least thirty years old or has
not resided in the Commonwealth for at least six
years preceding the general election of November 5,
2019.” The court declared that all of the allegations
in my ballot challenge were “irrelevant.” App. at a33a34. The circuit court implied that the only grounds
on which a voter may challenge a candidate's bona
bides are that he or she is not old enough or has not
resided in Kentucky long enough. But that is not
what KRS 118.176 says.
I immediately filed a motion to set aside in the

48
Court of Appeals on November 8, 2019. I wrote:
The Circuit Court failed and refused
to apply the governing statute, KRS 118.176.
What did the Court do when the
case was assigned to it on October 8,
2019? The answer is now quite clear:
the Court failed and recalcitrantly
refused to apply the governing statute,
KRS 118.176.
There was plenty of time between
October 9 and November 5, 2019, the
date of the general election, for the
Circuit Court to decide the ballot
challenge on its merits...
The Circuit Court did not address
ANY of the allegations in my ballot
challenge and summarized above.
Instead, the erroneous and frivolous
Order addressed an allegation that I
never made... (emphasis in original)
The recalcitrant Circuit Court did
mention the word “conspiracy” in one of
its frivolous findings: “The Movant's
claims regarding a conspiracy are
irrelevant to his claims under KRS
118.176.” Why is that, I wonder? Are
all allegations of a civil conspiracy
irrelevant, even if the allegations are

49
true? The Court didn't explain it, and
Section 151 of Kentucky's Constitution
is incompatible with any such finding...
Young's Motion to Set Aside at 9-10
I addressed the court's comment about res
judicata as follows:
The last frivolous finding the
Circuit Court included in its Order was,
“To the extent Movant asserts the same
(i.e., a conspiracy), those claims have
been previously adjudicated and are
barred by the doctrine of res judicata.”
That finding is false for three reasons:
(1) None of my previous lawsuits have
ever been adjudicated on their merits;
(2) there was no identity of parties, as
noted above; and (3) I have never before
filed a ballot challenge against Andy
Beshear for the cause of action of being
a primary-election-rigging, primaryelection-stealing, not-yet-indicted felon.
That's zero for three, and all three
conditions must be met for the doctrine
of res judicata to be applicable: identity
of parties, the same cause of action, and
a previous case that was adjudicated on
its merits. Id. at 11.
The Court of Appeals improperly gave my

50
motion to set aside a new case number with an “I” at
the end, which stands for “Interlocutory.” There was
nothing interlocutory about the circuit court's order,
however; it was clearly marked “final.” App. at a34.
On November 14, 2019, the Chief Judge of the
Court of Appeals, the Honorable Denise G. Clayton,
mailed me a show cause order that cited only one
authority: Gibson v. Thompson, 336 S.W.3d 81, 83
(Ky. 2011).

The order included a sentence that

indicated to me that the Court of Appeals had no
intention of weighing the evidence presented by the
Movant and Respondent: “The circuit court found
that Mr. Young did not meet his burden of proving
that Andy Beshear is not a bona fide candidate for
governor and dismissed the challenge to Mr.
Beshear's qualifications.” Order at 1.
On November 25, 2019,1 timely filed my

51
response, which made the following arguments:
1. That there had never been a valid legal
reason to send me a show cause order; it only
delayed the decision.
2. That the Court of Appeals should have
decided the ballot challenge in my favor because I
had presented evidence, Respondent had presented
none, and the circuit court had recalcitrantly refused
ever to reach the merits of my ballot challenge.
On February 27, 2020, the Court of Appeals
entered an order that concluded:
In the case sub judice, the circuit
court did not find that Mr. Beshear was
“not a bona fide candidate.” KRS
118.176(4). Therefore Mr. Young may
not invoke this Court's jurisdiction
through the expedited appeal procedure
set forth in KRS 118.176(4). Gibson,
336 S.W.3d at 82-83. App. at a43.
The Court of Appeals did not analyze any of

52
the allegations I made in my ballot challenge of
October 8, 2019. It never took up the question of
whether the Jefferson Circuit Court had violated
KRS 118.176 and used a fallacious straw-man
argument to dismiss the ballot challenge on the day
after the general election. If the primary duty of an
appellate court is to identify and correct errors made
by the court(s) below, the Kentucky Court of Appeals
knowingly refused to do its duty. Its entire dismissal
order of February 27, 2020 was reversible error.
Civil Rule 76.20 (2)(b) states that “A motion
for discretionary review by the Supreme Court of a
Court of Appeals decision shall be filed within 30
days after the date of the order of the order or
opinion sought to be reviewed...” I hand-delivered
ten copies of my motion for discretionary review to
the Supreme Court of Kentucky on March 18, 2020,

53
which was fewer than 30 days after the entry of the
dismissal order entered by the Court of Appeals on
February 27, 2020. On March 20, 2020, however, the
Supreme Court mailed one copy of my motion and
my uncashed check for $150.00 back to me because I
had missed the five-day deadline specified in CR
65.09 (1), which applies only to interlocutory orders.
It finally became clear to me why the Court of
Appeals had labeled my motion to set aside the
circuit court's dismissal order “NO. 2019-CA-001659I,” where the “I” at the end stood for “Interlocutory.”
Its motive was to cut my allowable time limit from 30
days to five. The Supreme Court of Kentucky played
its part by refusing to file my motion for
discretionary review, which had never in reality been
interlocutory. See App. at a33-a35, a35-a45, and a46a47. The Jefferson Circuit Court's dismissal order

54
was clearly final, not interlocutory.
The circuit court violated KRS 118.176, which
mandates that all ballot challenges be “tried
summarily and without delay,” from October 8 to
November 6, 2019; the Court of Appeals from
November 8, 2019 to February 27, 2019; and the
Supreme Court of Kentucky from March 18, 2020 to
the present day.

Kentucky's Judicial Department

again nullified a valid state statute, KRS 118.176.
Certiorari should be granted because
two unqualified candidates were allowed to keep
their names on the ballot in the 2018 general
election for the US House of Representatives and the
2019 general election for Governor of Kentucky.
The two Respondents got my two ballot
challenges dismissed before trial without ever
submitting any counterevidence that would have

55
undermined or contradicted my allegation that
neither Amy McGrath nor Andy Beshear was a bona
fide candidate in 2018 or 2019, respectively.
Certiorari should be granted because
the Kentucky Court of Appeals has set up
a legal environment in which circuit court judges
have a strong incentive to violate Kentucky's
ballot challenge statute.
Ever since 2015, the Court of Appeals has
made it clear that if the circuit court dismisses a
ballot challenge, the challenger's motion to set aside
will be dismissed as well.

It doesn't matter how

many reversible errors the circuit court commits,
how long the court lets the ballot challenge sit before
entering an order, or how meritless the final
dismissal order is. The Court of Appeals will cite
Gibson v. Thompson, 336 S.W.3d 81, 83 (Ky. 2011)

56
and find that the challenger has no right of appeal.
The circuit court may also feel confident that the
Supreme Court of Kentucky will deny discretionary
review if the Court of Appeals' dismissal order cited
the Gibson v. Thompson decision.
If a trial judge's highest priority is to apply the
law as written, he or she will try the ballot challenge
before the election occurs, on the merits, “summarily
and without delay.” KRS 118.176 (2).

In my four

ballot challenges to date, however, the circuit court
judge has invariably chosen the “safer” course: to let
the ballot challenge sit until after the election and
then dismiss it without ever weighing the evidence
pro and con. The cause of justice has not been served,
and the intent and clear provisions of KRS 118.176
have been defeated four times since 2015.
In the end, several candidates who were not

57
bona fide candidates have been allowed to have their
names appear on the ballot.

Respondent Andy

Beshear is now the Governor of Kentucky, but he
should never have been allowed to take the oath of
office.

A new election should have been held in

December 2019 or January 2020 without his and his
running mate's names on the ballot.
Certiorari should be granted because
the underlying controversy is whether the KDP
and the Republican Party of Kentucky (“RPK”)
may rig their own primaries in the future.
Primaries have been held in Kentucky for
approximately the last 120 years. The main purpose
of holding primary elections has always been to
reduce the influence of party elites and enhance the
influence of voters who are members of that party.
Since March, 2015, however, the KDP's lawyers have

V

58
claimed that primaries are not elections and
therefore do not have to be free and equal. However,
compare the Kentucky Constitution, Section 6; KRS
119.295; and Rosenberg v. Republican Party of
Jefferson County, 270 S.W.2d 171. Kentucky's
Judicial Department has not yet found and declared
that that defense is frivolous.
My response has always been that it would be
better to hold no state-funded primaries at all than
to falsely represent to the voters that they have some
say over who will represent them in the general
election.
The doctrine that the elites of the KDP and
RPK may rig their own primaries without running
afoul of KRS 118.105 (1), cited on pages 34-35 above,
contradicts Article I, § 2 of the Constitution. This
Court's decision in United States v. Classic, 313 U.S.

♦

59
299, 316-317 (1941) instructs as follows:
We cannot regard it as any the less the
constitutional purpose, or its words as
any the less guarantying the integrity of
that choice, when a state, exercising its
privilege
in
the
absence
of
Congressional action, changes the mode
of choice from a single step, a general
election, to two, of which the first is the
choice at a primary of those candidates
from whom, as a second step, the
representative in Congress is to be
chosen at the election.
In sum, when party elites rig an entire
primary in a state such as Kentucky which has laws
such as KRS 118.105 et seq., they are violating a
provision of the Constitution as well as KRS 118.105
(1).

They

are

attacking

democracy

itself.

Unfortunately, Kentucky's Judicial Department has
been helping the KDP destroy democracy in
Kentucky since 2015 by placing everything the KDP
does, no matter how violative, beyond the reach of

%
\

&

60

review by any court.
CONCLUSION
Petitioner submits that this Petition for Writ
of Certiorari should be granted. This Court may wish
to consider summary reversal of the decisions of the
Supreme Court of Kentucky and the Kentucky Court
of Appeals that are reproduced in the Appendix.
Respectfully submitted,

Geoffrey M. Young, pro se
454 Kimberly Place
Lexington, KY 40503
(859) 278-4966
Email: energetic22@yahoo.com
Signed on May 6, 2020.

